           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


  PERFORMANCE MEASURE REVIEW:
     INCREASE IN THE NUMBER
    OF DISABLED BENEFICIARIES
        WHO ARE WORKING


   May 2002      A-01-01-11022




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      May 31, 2002                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Performance Measure Review: Increase in the Number of Disabled Beneficiaries Who
           are Working (A-01-01-11022)


           The Government Performance and Results Act (GPRA) of 19931 requires the Social
           Security Administration (SSA) to develop performance indicators that assess the
           relevant service levels and outcomes of each program activity. GPRA also requires
           disclosure of the processes used to verify and validate the measured values used to
           report on program performance. SSA is committed to ensuring the importance of
           verifying and validating performance measures, and the Office of the Inspector General
           (OIG) audits of the performance measures are a means to achieve this. Our objective
           was to assess the reasonableness of the methodology SSA used to measure the
           following two Fiscal Year (FY) 2000 GPRA performance indicators:

                 · 10 percent increase (over FY 1997) in the number of Disability Insurance (DI)
                   beneficiaries beginning trial work periods (TWP).

                         FY 1997                           FY 2000                            FY 2000
                     Reported Baseline                       G oal                      Reported Perform ance
                          16,000                            17,600                             14,789

                 · 10 percent increase (over FY 1997) in the number of Supplemental Security
                   Income (SSI) disabled recipients aged 18-64 participating in 1619(a) status. 2

                         FY 1997                           FY 2000                            FY 2000
                     Reported Baseline                       G oal                      Reported Perform ance
                          19,767                            21,744                             25,772


           1
               Public Law No. 103-62.
           2
            Section 1619(a) of the Social Security Act provides special SSI cash benefits to individuals who would
           otherwise lose eligibility for regular SSI payments because they engage in substantial gainful activity. To
           qualify, the person must continue to be severely impaired and meet all other eligibility rules.
Our audit was limited to reviewing SSA’s methodology to obtain the data used to
determine the number of individuals beginning TWPs or participating in 1619(a) status
in FYs 1997 and 2000. We did not assess the reliability of the data SSA used for these
two performance indicators.3

Based on our audit, SSA’s methodology for measuring the FY 2000 GPRA performance
indicators related to its TWP and 1619(a) programs was reasonable. Specifically, we
reviewed SSA’s methodology, as well as the data4 used by SSA, for calculating the
number of people beginning TWPs and participating in the 1619(a) program.

BACKGROUND
Many beneficiaries with disabilities want to work and become independent, and many
can work despite their impairments if they receive the support they need. To that end,
SSA’s programs contain various work incentive provisions. Currently, however, less
than one-half of 1 percent of DI beneficiaries and about 1 percent of SSI recipients
actually leave the programs because of work activity.5 SSA has established
performance indicators under GPRA to increase the number of DI adult worker
beneficiaries who begin TWPs and to increase the number of SSI disabled recipients,
aged 18 to 64, participating in 1619(a) status. For FY 2000, SSA established goals of
10 percent increases relative to the FY 1997 base year numbers for each of these
indicators.

Federal regulations provide for TWPs for most DI beneficiaries.6 The entitlement to a
TWP generally begins with the month of entitlement and continues until the impairment
is no longer disabling or until 9 TWP months are completed, whichever occurs earlier.
The trial work provision is intended to give a disabled beneficiary the opportunity to test
his or her ability to work and hold a job. The individual may work for 9 months (not
necessarily consecutive) during which the work, regardless of magnitude, will not be
used as the basis for determining whether there was demonstrated ability to engage in




3
  The number of individuals participating in both the TWP and 1619(a) programs for FYs 1997 and
2000 changes over time because individuals can be added and removed from these programs,
retroactively, on a monthly basis. Additionally, SSA’s FY 1997 and 2000 1619(a) data files were based on
estimated earnings as of a specific date in August 1997 and August 2000, respectively. Since we did not
independently extract our own data files on these same dates, we could not test the reliability of these
data.
4
  Since these two performance measures were expressed as percentage changes between two
FY numbers, we reviewed (1) SSA’s 1619(a) data for FY 1997 and FY 2000 under the SSI program; and
(2) SSA’s TWP data for FYs 1997 and 2000 under the DI program.
5
 SSA report, Social Security and Supplemental Security Income Disability Programs: Managing for Today
Planning for Tomorrow, March 11, 1999.
6
    20 C.F.R. § 404.1592.


                                                   2
substantial gainful activity (SGA).7 After the end of the TWP, the work may be
considered in determining whether the individual demonstrated the ability to engage in
SGA.8 If a beneficiary is determined to be engaging in SGA, SSA no longer considers
the individual to be disabled.9

A work incentive for SSI recipients is the 1619(a) provision. Section 1619(a) of the
Social Security Act provides special SSI benefits to individuals who otherwise would
lose eligibility for SSI payments under the regular rules because they engage in SGA.
The person must continue to be severely impaired and meet all other eligibility rules.

The TWP and 1619(a) GPRA measures are interim measures that are being used by
SSA while it implements the return to work provisions included in the Ticket to Work
and Work Incentives Improvement Act of 1999.10 In SSA’s Annual Performance Plan
for FY 2002, the following Strategic Objective was included: “By 2005, increase by
100 percent from 1999 levels, the number of [DI] and of SSI disability beneficiaries who
achieve steady employment and no longer receive cash benefits.”

RESULTS OF REVIEW

Based on our audit, SSA’s methodology for measuring the FY 2000 GPRA performance
indicators related to its TWP and 1619(a) programs was reasonable. Specifically, we
reviewed SSA’s methodology, as well as the data11 used by SSA, for calculating the
number of people beginning TWPs and participating in the 1619(a) program.

TWP DATA

The chart below shows information published by SSA regarding its TWP GPRA goal,
which was a 10-percent increase (over FY 1997) in the number of DI beneficiaries
beginning TWPs.



7
 Program Operations Manual System (POMS), section DI 10501.001, states that SGA means
performance of significant physical or mental activities in work for pay or profit or in work of a type
generally performed for pay or profit. Significant activities are useful in the accomplishment of a job or the
operation of a business and have economic value.
8
 If a beneficiary is not entitled to a TWP, benefits will be ceased effective the first month the beneficiary
engages in SGA, as stated in SSA’s POMS, section DI 13010.080.
9
    POMS, section DI 13010.035.
10
  Public Law No. 106-170. The 1999 Ticket to Work legislation is being implemented by SSA over
several years; and, by 2005, SSA plans to have a new measure in place for returning beneficiaries to
work, which will replace the current TWP and 1619(a) measures.
11
  Since these two performance measures were expressed as percentage changes between two
FY numbers, we reviewed (1) SSA’s 1619(a) data for FY 1997 and FY 2000 under the SSI program and
(2) SSA’s TWP data for FYs 1997 and FY 2000 under the DI program.


                                                       3
            FY 1997                            FY 2000                           FY 2000
        Reported Baseline                        G oal                     Reported Perform ance
             16,000                             17,600                            14,789

To test SSA’s methodology for this measure, we requested from SSA data on its
FY 1997 and FY 2000 participation levels. SSA provided a file containing
16,376 beneficiaries with TWP start dates in FY 1997 and a file containing
14,789 beneficiaries with TWP start dates in FY 2000.12 To test whether beneficiaries
included in these files participated in TWPs, we selected a random sample of
100 cases each from the FY 1997 and FY 2000 files.

                  Of the 100 cases reviewed, we determined that 99 cases were
FY 1997           correctly identified, and 1 case was incorrectly identified as having
TWP Data          participated in a TWP. In this one case, the Master Beneficiary
                  Record (MBR) for the beneficiary did not show that any TWP months
were worked, and this beneficiary’s Detailed Earnings Query (DEQY) did not show any
earnings for calendar years (CY) 1997, 1998 or 1999. Projecting the results of our
sample to the population, we estimate that 16,212 beneficiaries included in SSA’s
FY 1997 TWP file participated in TWPs. (See Appendix C.) Since our estimate of
16,212 beneficiaries participating in TWPs exceeds SSA’s published FY 1997 base
year number of 16,000 beneficiaries by only 1.3 percent, we concluded that SSA’s
methodology for developing its FY 1997 TWP performance measure baseline data was
reasonable.

                  Of the 100 cases reviewed, we determined that 98 cases were
FY 2000           correctly identified, and 2 cases were incorrectly identified as having
TWP Data          participated in TWPs. In these two cases, the MBRs for the
                  beneficiaries did not show that any TWP months were worked, and
these beneficiaries’ DEQYs did not show any earnings for CY 2000. Projecting the
results of our sample to the population, we estimate that 14,493 beneficiaries included
in SSA’s FY 2000 file participated in TWPs. (See Appendix C.) Since our estimate of
14,493 beneficiaries is only 2 percent less than SSA’s published number of 14,789, we
concluded that SSA’s methodology for developing its FY 2000 TWP performance
measure figures was reasonable. However, as reported by SSA, the Agency did not
meet its FY 2000 TWP goal of 17,600 TWP participants.




12
  These data files were extracted from the MBR in January 1998 and January 2001, respectively. SSA’s
1997 file contained 16,376 beneficiaries, which is slightly higher than SSA’s published FY 1997 base year
number because SSA rounded the number down to 16,000. Even though SSA classifies this measure as
a FY number, the FY 2000 Performance and Accountability Report (SSA Pub. No. 31-231, issued
December 2000) states that the TWP GPRA data are actually captured on a CY basis.


                                                    4
1619(a) DATA

The chart below shows information published by SSA regarding its 1619(a) GPRA goal,
which was a 10-percent increase (over FY 1997) in the number of SSI disabled
recipients, aged 18-64, participating in 1619(a) status.

            FY 1997                             FY 2000                           FY 2000
        Reported Baseline                         G oal                     Reported Perform ance
             19,767                              21,744                            25,772

To test SSA’s methodology for this measure, we requested from SSA data on its
FY 1997 and FY 2000 participation levels. SSA provided us a file containing
19,443 recipients in 1619(a) status in September 1997 and a file containing
                                                         13
25,772 recipients in 1619(a) status in September 2000. These files were based on
estimated September 1997 and September 2000 wages and were extracted from the
Supplemental Security Record (SSR) in August 1997 and August 2000, respectively.
To test whether recipients included in these files were in 1619(a) status, we selected a
random sample of 100 cases from each of the FY 1997 and FY 2000 files. Based on
the results of our testing of SSA’s September 1997 and September 2000 1619(a) data
files, we were unable to reach a conclusion to meet our objective. (See below.) As an
alternative audit test, we then created and reviewed 1619(a) participant files for
September 1997 and September 2000 based on information on the SSR at later dates.

                     For each sample case, we reviewed September 1997 wage and
FY 1997              benefit payment information as of July 2001. Of the 100 cases
1619(a) Data         reviewed, we determined:

· 47 cases were correctly identified as having participated in 1619(a) status in
  September 1997.

· 53 cases were incorrectly identified as being in 1619(a) status. For 37 of these
  cases, the estimated wages were equal to or higher than the $700 SGA amount.
  However, the verified September 1997 wages were actually lower than the SGA
  amount. Therefore, the recipient qualified for regular SSI payments—not 1619(a)
  benefit payments. The remaining 16 cases were not in 1619(a) status because their
  September 1997 wages increased—making them ineligible for any SSI payments.



13
   SSA’s original FY 1997 1619(a) baseline number was 30,000, based on an SGA level of $500 per
month. However, in May 1999, the SGA level was increased from $500 to $700. With that change, the
FY 1997 baseline of 30,000 was recomputed to 19,767. When SSA recomputed its FY 1997 1619(a)
number, it did not delete recipients who were under age 18 or over age 64. Before providing us a file for
this audit, SSA deleted from its published 1997 number of 19,767 recipients, individuals under age 18 or
over age 64—resulting in a file containing 19,443 recipients. The 1997 and 2000 numbers are listed as
FY numbers in SSA’s FY 2000 Performance and Accountability Report. However, these numbers
represent recipients in 1619(a) status in September 1997 and September 2000, respectively.


                                                     5
Based on the results of our sample of SSA’s FY 1997 1619(a) data file—in which we
found that only 47 of 100 sampled recipients were in 1619(a) status—we could not
support SSA’s reported performance indicator level. This occurred because SSA’s
FY 1997 performance level was computed based on estimated wages reported to SSA
as of August 1997. Since, over time, those estimated wages were changed to verified
wage amounts, many of the recipients identified by SSA to be in 1619(a) status during
September 1997 were not actually in 1619(a) status based on their verified wages.
Conversely, we recognized that the number of recipients who were actually in 1619(a)
status in September could be higher if we identified people in 1619(a) status on a later
date—after their estimated wages were verified by SSA.

To determine the actual number of recipients in 1619(a) status in September 1997, we
performed additional audit tests. Specifically, using information contained on the SSR
in June 2000, we created a file that contained 21,517 recipients in 1619(a) status as of
September 1997. To test the reliability of these data, we randomly selected 100 of
these 21,517 recipients for review. Based on wage and benefit payment information on
the recipients’ SSRs for September 1997, all 100 cases were correctly identified as
having participated in 1619(a) status in September 1997. Projecting the results of our
sample to the population, we are 90-percent confident that at least 21,028 recipients
(which is 6.4 percent greater than SSA’s published FY 1997 base year number of
19,767) were in 1619(a) status in September 1997. (See Appendix C.) Thus, although
SSA’s FY 1997 data file of 19,443 cases was based on estimated earnings for
September 1997, our review of individuals with verified earnings for September 1997
showed that SSA’s methodology for developing the FY 1997 1619(a) performance
indicator was reasonable. Since earnings can take months—and sometimes years—to
verify, SSA’s use of estimated earnings was reasonable for developing this
performance measure. The estimated earnings data was the best information available
to SSA at the time.

                  For each sample case, we reviewed September 2000 wage and
FY 2000
                  benefit payment information as of July 2001. Of the 100 cases
1619(a) Data
                  reviewed, we determined:

·   62 cases were correctly identified as having participated in 1619(a) status in
    September 2000.

·   38 cases were incorrectly identified as being in 1619(a) status. For 22 of these
    cases, the estimated wages were equal to or higher than the $700 SGA amount.
    However, the verified September 2000 wages were actually lower than the SGA
    amount. Therefore, the recipient qualified for regular SSI payments—not 1619(a)
    benefit payments. The remaining 16 cases were not in 1619(a) status because their
    September 2000 wages increased—making them ineligible for any SSI payments.

Based on the results of our sample of SSA’s FY 2000 1619(a) data file—in which we
found that only 62 of 100 sampled recipients were in 1619(a) status—we could not
support SSA’s reported performance indicator level. This occurred because SSA’s


                                             6
FY 2000 performance level was computed based on estimated wages reported to SSA
as of August 2000. Since, over time, those estimated wages were changed to verified
wage amounts, many of the recipients identified by SSA to be in 1619(a) status during
September 2000 were not actually in 1619(a) status based on their verified wages.
Conversely, we recognized that the number of recipients who were actually in 1619(a)
status in September 2000 could be higher if we identified people in 1619(a) status on a
later date—after their estimated wages were verified by SSA.

To determine the actual number of recipients in 1619(a) status in September 2000, we
performed additional audit tests. Specifically, using information contained on the SSR
in November 2001, we created a file that contained 34,184 recipients in 1619(a) status
as of September 2000. To test the reasonableness of SSA’s methodology, we
randomly selected 100 of these 34,184 recipients for review. Based on wage and
benefit payment information on the recipients’ SSRs for September 2000, all 100 cases
were correctly identified as having participated in 1619(a) status in September 2000.
Projecting the results of our sample to the population, we are 90-percent confident that
at least 33,407 recipients (which is 29.6 percent greater than SSA’s published
FY 2000 number of 25,772) were in 1619(a) status in September 2000. (See Appendix
C.) Thus, although SSA’s FY 2000 data file of 25,772 cases was based on estimated
earnings for September 2000, our review of recipients with verified earnings for
September 2000 showed that SSA’s methodology for developing the FY 2000 1619(a)
performance indicator was reasonable. Since earnings can take months—and
sometimes years—to verify, SSA’s use of estimated earnings was reasonable for
developing this performance measure. The estimated earnings data was the best
information available to SSA at the time.

OCTOBER 2001 PAY STATUS OF INDIVIDUALS IN OUR SAMPLES

To assess whether participating in a TWP or being in 1619(a) status resulted in these
individuals leaving SSA’s programs due to work activities, we determined the payment
status for our FY 1997 sample cases as of October 2001. For this analysis, we used
the pay status of the individuals included in our two samples extracted from SSA’s
FY 1997 TWP and 1619(a) files. The pay status on the MBRs or SSRs as of
October 2001 are shown in the following table:




                                           7
                October 2001 Pay Status of FY 1997 Sample Cases
                                             No
                                                                              Terminated
                                           Payment
                                                            Terminated             or
                         Received          Received
                                                              due to          Suspended           Total
                         Payments           Due to
                                                              Death            for Other
                                          Income or
                                                                               Reasons
                                          Resources
     FY 1997
     TWP
                              64               24                 9                 3a             100
     Sample
     Cases
     FY 1997
     1619(a)
                              39               54                 2                 5b             100
     Sample
     Cases
     Notes:
     a
       The three TWP cases are in nonpayment status for the following reasons: refusal to receive
     vocational rehabilitation, reason not defined, and deferred to recover overpayment not separately
     defined.
     b
       The five 1619(a) cases are in nonpayment status for: failure to provide a required report, inmate in a
     penal institution, failure to submit to consultative examination, and whereabouts unknown (two cases).

The table above shows that 78 of the 200 sampled cases (39 percent) did not receive
benefit payments in October 2001 due to income or resource issues.14 This indicates
that SSA’s TWP and 1619(a) work incentive programs may be encouraging individuals
to return to work.

CONCLUSION AND RECOMMENDATION

Based on our audit, SSA’s methodology for measuring the FY 2000 GPRA performance
indicators related to its TWP and 1619(a) programs was reasonable. However, we
found that—to report on this performance measure in a timely manner—SSA must rely
on estimated wages to calculate the number of recipients in 1619(a) status. Since SSA
is using estimated wages to calculate this measure, we recommend that SSA include a
statement in future performance reports that its “actual” performance levels are based
on estimated wage amounts, and, as a result, may change over time as those wage
amounts are verified.




14
  For the 78 cases, 74 did not receive benefit payments due to income and the remaining 4 did not
receive benefit payments due to resources.


                                                       8
AGENCY COMMENTS

In response to our draft report, SSA agreed with our recommendation. Specifically,
SSA will include a statement in future performance reports. (See Appendix F for SSA’s
comments.)




                                              James G. Huse, Jr.




                                          9
                               Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sample Results

APPENDIX D – Flowchart for Input of Trial Work Period (TWP) Information to the
             Master Beneficiary Record and Extraction of TWP Performance
             Measure Files

APPENDIX E – Flowchart for Input of 1619(a) Information to the Supplemental Security
             Record and Extraction of 1619(a) Performance Measure Files

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms

 CY        Calendar Year
 DEQY      Detailed Earnings Query
 DI        Disability Insurance
 FO        Field Office
 FY        Fiscal Year
 GPRA      Government Performance and Results Act
 MBR       Master Beneficiary Record
 MSSICS    Modernized Supplemental Security Income Claims System
 OIG       Office of the Inspector General
 POMS      Program Operations Manual System
 PSC       Payment Service Center
 SGA       Substantial Gainful Activity
 SSA       Social Security Administration
 SSI       Supplemental Security Income
 SSR       Supplemental Security Record
 TWP       Trial Work Period
                                                                       Appendix B

Scope and Methodology
Our objective was to assess the reasonableness of the methodology the Social Security
Administration (SSA) used to measure the number of disabled beneficiaries who are
working.

To test the accuracy and reliability of SSA’s performance data, we:

·   identified the data collection process used by SSA in preparing the data for its
    Annual Performance Plan;

·   interviewed personnel at data entry/collection sites to gain an understanding of how
    data is collected and input into SSA’s systems;

·   obtained files from SSA of the individuals who began trial work periods (TWP) and
    participated in the 1619(a) program in Fiscal Years (FY) 1997 and 2000;

·   obtained a random sample of 100 beneficiaries/recipients from each group and
    tested those records to determine whether the individuals actually began TWPs or
    received 1619(a) benefits;

·   created a file (as of June 2000) of recipients in 1619(a) status in September 1997,
    and reviewed 100 sample cases; and

·   created a file (as of November 2001) of recipients in 1619(a) status in
    September 2000, and reviewed 100 sample cases.

In conducting this audit, we also:

·   reviewed SSA’s Performance and Accountability Report and SSA’s Annual
    Performance Plan for FY 2000 to determine the baseline data, definition, and data
    source for the performance indicator;

·   researched the Program Operations Manual System, the Code of Federal
    Regulations, and the Social Security Act; and

·   determined the pay status in October 2001 of the beneficiaries/recipients in our
    random samples based on SSA’s FY 1997 TWP and 1619(a) files.

Our audit was limited to reviewing SSA’s methodology in determining the number of
individuals beginning TWPs or participating in the 1619(a) program in FYs 1997 and
2000. We could not assess the reliability of the data SSA used for these two


                                            B-1
performance indicators.1 Also, we could not test the completeness of SSA’s FY 1997
or FY 2000 TWP files. Our audit tests were limited because SSA extracted these files
from the MBR in January 1998 and January 2001, respectively, but continued to
retroactively place individuals in TWPs after creating these files.

We performed our audit between June and December 2001 in Boston, Massachusetts.
The entity audited was the Office of Employment Support Programs within the Office of
the Deputy Commissioner, Disability and Income Security Programs. We conducted
our audit in accordance with generally accepted government auditing standards.




1
 The number of individuals participating in both the 1619(a) and TWP programs for FY 1997 and FY 2000
changes over time because individuals can be added and removed from these programs, retroactively, on
a monthly basis. Additionally, SSA’s FY 1997 and FY 2000 1619(a) data files were based on estimated
earnings as of a specific date in 1997 and 2000, respectively. Since we did not independently extract our
own data files on these same dates, we could not test the reliability of this data.



                                                  B-2
                                                                       Appendix C

Sample Results
From the Social Security Administration (SSA), we obtained files of individuals who
began trial work periods (TWP) in Fiscal Years (FY) 1997 and 2000 and individuals who
were in 1619(a) status in September 1997 and September 2000.

Based on the results of our testing of SSA’s September 1997 and September 2000
1619(a) data files that were based on estimated income, we were unable to reach a
conclusion to meet our audit objective. As an alternative audit test, we created and
reviewed files of recipients in 1619(a) status in September 1997 and September 2000
based on information on the Supplemental Security Record (SSR) at later dates. Our
second sample of September 1997 1619(a) data was based on information on the SSR
in June 2000, and our second sample of September 2000 1619(a) data was based on
information on the SSR in November 2001.

Our sample results and projections are detailed in the tables below.


                  FY 1997 TWP Sample Results and Projection
   Population size                                                       16,376
   Sample size                                                              100

   Sampled cases which show participation in a TWP                           99
   Projection of cases with participation in a TWP                       16,212
   Projection lower limit                                                15,615
   Projection upper limit                                                16,368
  Note: All projections are at the 90 percent confidence level.



                  FY 2000 TWP Sample Results and Projection
   Population size                                                       14,789
   Sample size                                                              100

   Sampled cases which show participation in a TWP                           98
   Projection of cases with participation in a TWP                       14,493
   Projection lower limit                                                13,879
   Projection upper limit                                                14,736
  Note: All projections are at the 90-percent confidence level.




                                                   C-1
  SSA Provided Files for 1619(a) Program for FYs 1997 and 2000
                         Sample Results
Population size – FY 1997 File                                  19,443
Sample size                                                        100
Sampled cases which show participation in 1619(a) status            47

Population size – FY 2000 File                                  25,772
Sample size                                                        100
Sampled cases which show participation in 1619(a) status            62
Note: All projections are at the 90 percent confidence level.



            Auditor Prepared 1619(a) Extract File for FY 1997
                     Sample Results and Projections
Population size                                                 21,517
Sample size                                                        100

Sampled cases which show participation in 1619(a) status           100
Projection of cases in 1619(a) status                           21,517
Projection lower limit                                          21,028
Note: All projections are at the 90 percent confidence level.



            Auditor Prepared 1619(a) Extract File for FY 2000
                     Sample Results and Projections
Population size                                                 34,184
Sample size                                                        100

Sampled cases which show participation in 1619(a) status           100
Projection of cases in 1619(a) status                           34,184
Projection lower limit                                          33,407
Note: All projections are at the 90 percent confidence level.




                                                C-2
                                                                                                Appendix D
                                                FLOWCHART
Input of Trial Work Period (TWP) Information to the Master Beneficiary
                                                                  1
Record (MBR) and Extraction of TWP Performance Measure Files

                                                    Beneficiary informs Field
                                                     Office of commencing
                                                               TWP




                                                     FO prepares and prints
                                                         the "Report of
                                                           Allegation"




                                                   "Report of Allegation" is
                                                  sent to the controlling PSC




                        PSC maintains all files                         PSC inputs the TWP Start
                         for beneficiaries in                              Date to MBR in the
                                TWPs                                     Disability Investigation
                                                                                    line


                       Based on information on
                     the MBR, beneficiaries who
                         are in current pay or
                          suspended due to
                       extended TWP, and who
                      have a TWP start date , are
                               identified.




                          In January, all TWP
                         start dates from the
                         prior calendar year
                          are extracted from
                              the MBR.




1
    Refer to Appendix A for acronyms.
                                                                                                     Appendix E
                                                  FLOWCHART
Input of 1619(a) Information to the Supplemental Security Record
(SSR) and Extraction of 1619(a) Performance Measure Files1

        Beneficiary informs
           FO of income




          FO decides what                             Do earnings                            FO will accept
          documentation is                             only effect
                                                                                YES        beneficiary's oral
        sufficient to support                        current/future                      statement as support
                income                                  months?                               for income


                                                                NO (effects past months)
                                                                                      Pay stubs and record
         Employer provides pay
                                                  FO acquires support                 of conversations are
       stubs or oral confirmation
                                                       of income                          kept at the FO
        of beneficiary's income




                                                 Information posted to
                                                 SSR via "SSI Eligibility"
                                                 screen or via "Wages
                                                   Screen" in MSSICS
                                                                                                     Criteria for
                                                                                                        1619(a)
                                                                                                      extract is
                                                                                                     formulated


                               Extract based on:
                    1. Pay Status code in CMPH field must
                              equal current pay.
                     2. Earned Income field must contain
                  amount greater than or equal to the SGA
                                   amount.
                  3. Individual must be entitled to a benefit
                                   payment.




                                                                 1619(a) information is
                                                                extracted as of the cutoff
                                                                date for the next monthly
                                                                        payment.




1
    Refer to Appendix A for acronyms.
                  Appendix F
Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM                                                                      31165-24-775


Date:      May 9, 2002                                                            Refer To:   S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Performance Measure Review: Increase in
           the Number of Disabled Beneficiaries Who are Working” (A-01-01-11022)—INFORMATION

           We appreciate the OIG’s efforts in conducting this review. Our comments on the report content
           and recommendation are attached.

           Please let us know if we may be of further assistance. Staff questions may be referred to Trudy
           Williams on extension 50380.

           Attachment:
           SSA Response




                                                          F-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “PERFORMANCE
MEASURE REVIEW: INCREASE IN THE NUMBER OF DISABLED
BENEFICIARIES WHO ARE WORKING” (A-01-01-11022)


Recommendation

SSA should include a statement in future performance reports that its "actual" performance levels
are based on estimated wage amounts, and as a result, may change over time as those wage
amounts are verified.

Comment

We agree and will include a statement in future performance reports.




                                               F-2
                                                                      Appendix G
OIG Contacts and Staff Acknowledgments
OIG CONTACTS

   Rona Rustigian, Director, Northern Audit Division, (617) 565-1819

   Judith Oliveira, Deputy Director, (617) 565-1765


ACKNOWLEDGMENTS

In addition to the persons named above:

   Arthur Giterman, Auditor

   Katie Hallock, Auditor

   Kevin Joyce, Auditor

   David Mazzola, Senior Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-01-01-11022.
                            DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
Chairman, Committee on Appropriations, House of Representatives            1
                                                                             Page 2

Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                 Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the Inspector
General (OIG) – administrative support, strategic planning, quality assurance, and public affairs.
OEO supports the OIG components by providing information resources management; systems
security; and the coordination of budget, procurement, telecommunications, facilities and
equipment, and human resources. In addition, this Office coordinates and is responsible for the
OIG’s strategic planning function and the development and implementation of performance
measures required by the Government Performance and Results Act. The quality assurance
division performs internal reviews to ensure that OIG offices nationwide hold themselves to the
same rigorous standards that we expect from the Agency. This division also conducts employee
investigations within OIG. The public affairs team communicates OIG’s planned and current
activities and the results to the Commissioner and Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
